 MEMORANDUM

 Date:            October 29, 1998

 To: ,

 From:                                      cia1-Agent, Investigations Section- -   -




 Through:        -pecial                      Agent-in-Charg

 Re:              Case Closeout

 Background

 We received an anonymous allegation on the OIG hotline stating h    ta-tas
         -
 misusing funds from his NSF awards. The caller stated that she was the sister of a woman
 who was involved in an affair wit                 and that he had used his grant money to
 visit her sister and to pay for other non-gran related expenses.

 Investigation




                           g his ex-wife and children since.


investigation of thes

  On October 29, 1998, we received a copy                    University audit report. The
  report stated that the auditors had reviewed                travel expenses, phone usage
                        - made to his
  reports, and the charges                                   five vears. The auditors found
                      d supporting documentation for all of his ravel costs, and found no
                      ges to his NSF grant. They did find that b h a d failed to
  reimburse the university for personal telephone calls totaling approximately $2,268.00.
-rovide-with                      a statement that he would reimburse the university.
Findings

                         isappropriated $2,268.00 in university resources, there is no   Ir

*lthoug-
indication  a e was misusing his NSF grant funds. No further investigation is
warranted at this time, and this case is closed.
